CERTIFICATE OF COMPLIANCE
No. 20-1012
CHARLES Q-UENTHER,
Petit~oner,

vs.

LOCKHEED MARTIN CORPORATION AND
LOCKHEED MARTIN CORPORATION SALARIED
EMPLOYEE RETIREMENT PROGRAM,
Respondents ..

As required by Supreme Court Rule 33. l(h), I
certify that the Reply Brief In Support Of A Petition
For A Writ of Certiorari contains 411 words, excluding
the parts of the Petition For A Writ of Certiorari that
are exempted by Supreme Court Rule 33.l(d).
I declare under penalty of perjury that the
foregoing is true and correct.
Executed on April 23, 2021.

~rp~
ANDREW F. PIERCE
Counsel for Petitioner
Charles Guenther

1

